                                            Office of Inspector General
                                           Corporation for National and
                                                    Community Service




        AGREED-UPON PROCEDURES REVIEW OF
         CORPORATION GRANTS AWARDED TO
       DELAWARE COMMISSION ON COMMUNITY
             AND VOLUNTEER SERVICE

                           OIG REPORT 10-09




                             Prepared by:

                      Regis & Associates, PC
                     1400 Eye Street, Suite 425
                      Washington, DC 20005




This report was issued to Corporation management on March 16, 2010. Under the laws and
regulations governing audit follow-up, the Corporation is to make final management decisions
on the report’s findings and recommendations no later than September 16, 2010, and complete
its corrective actions by March 16, 2011. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                        March 16, 2010


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 10-09, Agreed-Upon Procedures Review of Corporation Grants
               Awarded to Delaware Commission on Community and Volunteer Service


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Regis and Associates, PC (Regis) to
perform the procedures. The contract required Regis to conduct its review in accordance with
generally accepted government auditing standards.

Regis is responsible for the attached report, dated October 30, 2009, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Awards and
Claimed and Questioned Costs or the Subgrantees’ Schedule of Awards and Claimed and
Questioned Costs, conclusions on the effectiveness of internal controls, or the grantee’s
compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by September 16, 2010. Notice of final action is due by March 16, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ron Huritz,
Audit Manager, at (202) 606-9355.

Attachment

cc:     Andy Kloepfer, Social Service Senior Administrator, Delaware Commission
        William Anderson, Acting Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
          Management, CNCS
        Bridgette Roy, Administrative Assistant, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        R. Thomas Wagner, Auditor of Accounts, State of Delaware
        David Crooks, Regis & Associates, PC



               1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                   202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       OFFICE OF INSPECTOR GENERAL

                                     AGREED-UPON PROCEDURES FOR

              FEDERAL ASSISTANCE FUNDS AWARDED TO
    DELAWARE COMMISSION ON COMMUNITY AND VOLUNTEER SERVICE

                                                       Table of Contents



Section                                                                                                                            Page

Executive Summary ...............................................................................................................1

           Summary of Results..................................................................................................1

            Agreed-Upon Procedures Scope..............................................................................2

            Background..............................................................................................................2


Independent Accountant’s Report on Applying Agreed-Upon Procedures..........................4

          Results.......................................................................................................................5

             Exhibit A: ..............................................................................................................6

                Consolidated Schedule of Awards, and Claimed and Questioned Costs...........6

                Subgrantees’ Schedule of Awards, and Claimed and Questioned Costs...........6


             Exhibit B: Compliance and Internal Control ........................................................7

             Exhibit C: Consolidated Schedule of Recommendations
                       and Questioned Costs .........................................................................21


Appendix A – Delaware Commission on Community and Volunteer Service’s Response
             to the Draft Report

Appendix B – Corporation for National and Community Service’s Response to the
             Draft Report
                                EXECUTIVE SUMMARY

Summary of Results

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Regis & Associates, PC to perform agreed-upon procedures of
grant cost and compliance for Corporation-funded Federal assistance provided to the
Delaware Commission on Community and Volunteer Service (Commission). As a result of
applying these procedures, we questioned Federal-share costs of $38,678. The detailed
results of our agreed-upon procedures (AUP) on claimed costs are presented in Exhibit A,
Consolidated Schedule of Awards, and Claimed and Questioned Costs and the Subgrantees’
Schedule of Awards, and Claimed and Questioned Costs. A questioned cost is an alleged
violation of a provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of Federal funds, or a finding that, at the
time of testing, such cost is not supported by adequate documentation.

Costs Claimed and Questioned Costs. The Commission claimed total grant costs of
$1,440,283 during the period covered by the AUP.

 As a result of testing a randomly selected sample of transactions, we questioned costs as
shown below.

                                                                  Claimed
                   Award         Funding                          Within         Questioned
   Program         Number       Authorized     AUP Period        AUP Period         Costs
AmeriCorps –
Competitive      06ACHDE001     $ 1,271,180   10/1/07-6/30/09    $    814,560    $        5,975
AmeriCorps –
Formula          06AFHDE001       1,247,484   10/1/07-6/30/09         342,168             3,554
Total
AmeriCorps                      $ 2,518,664                      $   1,156,728       $    9,529
PDAT             08PTHDE001         133,197   1/1/08–12/31/08           65,335                -
Administrative   07CAHDE001         292,797     1/1/08-6/30/09         218,220           29,149
Disability       09CDHDE001          21,964     1/1/09-6/30/09               -                -
Total                           $ 2,966,622                      $   1,440,283   $       38,678

Details of the questioned costs are discussed in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures.

Compliance and Internal Control. The detailed results of our agreed-upon procedures
showed instances of non-compliance with grant provisions, regulations, or Office of
Management and Budget (OMB) circulars. The areas of non-compliance we identified are
presented below and in Exhibit B, Compliance and Internal Control section of the
Independent Accountants’ Report on Applying Agreed-Upon Procedures. The areas of non-
compliance are presented below:



                                               1
      Commission’s monitoring procedures were not fully performed, and the results were
       not always documented;
      Inadequate controls to ensure that grant fund matching requirements are met;
      One background check was performed after the member completed service; and
      Lack of adequate procedures to ensure that all program compliance requirements
       were followed.

Exit Conference and Responses to Draft Report. The contents of this report were
discussed with the Commission and the Corporation at an exit conference held at the
Commission’s offices in Newcastle, Delaware on December 16, 2009. In addition, on
January 8, 2010, a draft of this report was provided to the Commission and to the
Corporation for comment. The Commission’s response to the findings and recommendations
in the draft report are included in Appendix A and summarized in each finding. The
Corporation did not respond to the individual findings and recommendations. Its response is
in Appendix B.

Agreed-Upon Procedures Scope

These agreed-upon procedures covered the allowability, allocability, and reasonableness of
financial transactions claimed under funding provided by the Corporation for the following
awards, as well as grant-match costs for the grant awards and periods listed below.


             Program           Award Number       Award Period        Testing Period
    AmeriCorps- Competitive    06ACHDE001         10/1/07 – 9/30/09   10/1/07 – 6/30/09
    AmeriCorps -Formula        06AFHDE001         10/1/06 – 9/30/09   10/1/07 – 6/30/09
    PDAT                       08PTHDE001         1/1/08 – 12/31/09   1/1/08- 12/31/08
    Administrative             07CAHDE001         1/1/08 – 12/31/09   1/1/08 – 6/30/09
    Disability                 09CDHDE001         1/1/09 – 12/31/09   1/1/09 – 6/30/09

We also performed tests to determine compliance with grant terms and provisions. We
performed our procedures during the period September 8 through October 30, 2009. We
judgmentally selected a sample of 53 members and reviewed their member files during the
AUP engagement.

The OIG’s agreed-upon procedures program, dated May 2009, provided guidelines for
testing compliance with provisions of the grants and testing claimed grant and matched costs.
These procedures are described in more detail in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures.

Background

The Corporation, pursuant to the authority of the National Community Trust Act of 1993, as
amended, awards grants and cooperative agreements to State commissions, such as Delaware
Commission on Community and Volunteer Service, nonprofit entities, and tribes and
territories to assist in the creation of full-time and part-time national and community service
programs.
                                                   2
The Commission is an entity created by the merger of the Council on Volunteerism and the
Delaware Community Service Commission. The Commission administers its Federal
assistance grant programs with funding from the Corporation. It also receives from the
Corporation Administrative, Program Development, and Disability Placements grants. The
Commission is a unit within the Delaware Division of State Service Centers in the
Department of Health and Social Services.

The Commission provides financial support through grants to public and nonprofit
organizations that sponsor service programs in the State, including faith-based and other
community organizations and public agencies. These groups recruit, train and place
AmeriCorps members to meet critical community needs in education, public safety, health,
and environment. The Commission does not operate the programs directly. During the
period under review, the Commission sub-granted the Corporation’s Federal assistance funds
to four subgrantees: Ministry of Caring, Inc.; YMCA of Delaware-Emergency Services
Corps (YMCA/ESC); Delaware State Parks; and Sussex County Habitat for Humanity.




                                            3
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS




                     INDEPENDENT ACCOUNTANTS’ REPORT ON
                       APPLYING AGREED-UPON PROCEDURES

We have performed procedures described below, which were agreed to by the Office of
Inspector General (OIG), solely to assist the OIG in grant-cost compliance testing of
Corporation-funded Federal assistance provided to the Commission for awards and periods
listed below. This agreed-upon procedures engagement was performed in accordance with
standards established by the American Institute of Certified Public Accountants and
generally accepted government auditing standards. The sufficiency of these procedures is
solely the responsibility of the OIG. Consequently, we make no representation regarding
the sufficiency of the procedures described below, either for the purpose for which this
report has been requested or any other purpose.


             Program            Award Number          Award Period          Testing Period
    AmeriCorps- Competitive      06ACHDE001          10/1/07 – 9/30/09     10/1/07 – 6/30/09
    AmeriCorps –Formula          06AFHDE001          10/1/06 – 9/30/09     10/1/07 – 6/30/09
    PDAT                         08PTHDE001          1/1/08 – 12/31/09     1/1/08 - 12/31/08
    Administrative               07CAHDE001          1/1/08 – 12/31/09     1/1/08 – 06/30/09
    Disability                   09CDHDE001          1/1/09 – 12/31/09     1/1/09 – 06/30/09

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included:

       Obtaining an understanding of the Commission and its subgrantees’ monitoring
        process;

       Reconciling claimed and matched costs to the accounting systems of the
        Commission and of selected subgrantees in our sample;

       Testing subgrantees’ member files to verify that the records supported members
        eligibility to serve, and allowability of living allowances and education awards;

       Testing the Commission’s and a sample of subgrantees’ compliance with certain
        grant provisions and award terms and conditions; and

       Testing claimed and matched grant costs of the Commission and a sample of
        subgrantees to ensure:


    1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
       i. Proper recording of the Administrative grant, PDAT grant, Disability grant, and
          AmeriCorps grants;

       ii. Costs were properly matched; and

       iii. Costs were allowable and supported in accordance with applicable regulations,
            OMB circulars, grant provisions, and award terms and conditions.

Results

As a result of applying the agreed-upon procedures, we questioned amounts totaling
$38,678, consisting of education awards of $5,975, living allowances of $3,554, and
drawdown of excess grant funds of $29,149. The questioned costs are summarized in
Exhibit A, Consolidated Schedule of Awards, and Claimed and Questioned Costs and the
Subgrantees’ Schedule of Awards, and Claimed and Questioned Costs. The compliance
and internal control testing results are summarized in Exhibit B. Issues identified include
the following:

      Commission’s monitoring procedures were not fully performed, and the results
       were not always documented;

      Inadequate controls to ensure that grant fund matching requirements are met;

      One background check was performed after the member completed service; and

      Lack of adequate procedures to ensure that all program compliance requirements
       were followed.




                                              5
                                                                                        EXHIBIT A

     DELAWARE COMMISSION ON COMMUNITY AND VOLUNTEER SERVICE

       CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED AND QUESTIONED COSTS



                                                                       Claimed
                               Award          Funding                Within AUP           Questioned
         Program              Number         Authorized                 Period               Costs
 AmeriCorps – Competitive   06ACHDE001      $ 1,271,180              $     814,560        $      5,975
 AmeriCorps – Formula       06AFHDE001          1,247,484                  342,168               3,554
 Total AmeriCorps                           $ 2,518,664              $   1,156,728         $     9,529

 PDAT                       08PTHDE001      $         133,197                 65,335                     -
 Administrative             07CAHDE001                292,797                218,220       $        29,149
 Disability                 09CDHDE001                 21,964                      -                     -
 Total                                      $       2,966,622        $     1,440,283       $        38,678




   SUBGRANTEES’ SCHEDULE OF AWARDS AND CLAIMED AND QUESTIONED COSTS



                               Award                Award                Claimed               Questioned
       Subgrantees             Number               Amount                Costs                   Costs

06ACHDE001-Competitive
Delaware State Parks*       06ACHDE001001   $        1,271,180   $           814,560       $          5,975
Sub-total                                   $        1,271,180   $           814,560       $          5,975


06AFHDE00I - Formula
YMCA/ESC*                   06AFHDE001001   $         744,579    $           219,748           $      3,554
Ministry of Caring          06AFHDE001002             377,254                104,484                      -
Sussex County Habitat
 for Humanity               06AFHDE001003              125,651                 17,936                     -
Sub-total                                   $        1,247,484   $            342,168          $      3,554
   Subgrantees' total                       $        2,518,664   $          1,156,728           $     9,529



   * Subgrantees selected for AUP testing




                                                6
                                                                                 EXHIBIT B

DELAWARE COMMISSION ON COMMUNITY AND VOLUNTEER SERVICE

                     COMPLIANCE AND INTERNAL CONTROL ISSUES



Finding 1.      Fiscal And Programmatic Monitoring Procedures Of Subgrantees
                Were Not Fully Performed, And The Results Were Not Always
                Documented.

Based on our review, we noted that programmatic onsite monitoring is conducted on a
quarterly basis. However, during our subgrantee site visits, we found that the documented
results of the programmatic monitoring visits are not always provided to the subgrantees in
a timely manner, and follow-up by the Commission was not always performed.

For example, the Commission’s program site visit to YMCA/ESC identified that timesheets
were not signed by members. However, the Commission did not perform adequate follow-
up with YMCA/ESC’s management to ensure that these occurrences are corrected in a
timely manner. Our review of timesheets identified instances of unsigned members’
timesheets.

The Commission also indicated that it had instituted an annual fiscal monitoring process for
subgrantees. However, the Commission was unable to provide copies of reports of fiscal
monitoring performed during the period covered by the AUP engagement.

The Commission’s program manager said that issues identified during monitoring visits are
discussed verbally with subgrantees at the end of each visit. The Commission also
indicated that because most of the subgrantees reviews are scheduled around the same time
of year, documented results are usually sent to subgrantees after all the reviews are
completed, which may lead to the delays. The Commission also indicated that the annual
fiscal monitoring for its subgrantees is a new process and as a result, the first completed
report was not available during our review.

A properly completed monitoring review includes identifying issues, providing
recommendations to correct the issues, and timely follow-up to ensure that the causes of the
issues are resolved and corrective actions are implemented. Monitoring procedures that do
not communicate timely corrective measures to subgrantees and perform proper follow-up
could lead to the continuance of inappropriate activities, even after they are detected.
These problems could eventually lead to disallowance of member benefits and education
awards.

Criteria:
The 2008 AmeriCorps Grant Provisions, Section V.A. Responsibilities under Grant
Administration, states in part: 1. Accountability of Grantee. The grantee has full fiscal and
programmatic responsibility for managing all aspects of the grant and grant-supported

                                              7
activities, subject to the oversight of the Corporation. The grantee is accountable to the
Corporation for its operation of the AmeriCorps Program and the use of Corporation grant
funds.

Title 45 C.F.R. § 2541.400(a)Monitoring by grantees, states:

       Grantees are responsible for managing the day-to-day operations of
       grant and subgrant supported activities. Grantees must monitor grant
       and subgrant supported activities to assure compliance with applicable
       Federal requirements and that performance goals are being achieved.
       Grantee monitoring must cover each program, function or activity.

Recommendations:
We recommend that the Corporation:

1a.    Require the Commission to ensure that the results of program site monitoring and
       recommended corrective actions are communicated timely to subgrantees.

1b.    Require the Commission to document the results of all monitoring procedures
       performed, including documenting follow-up, and to retain the evidence of
       monitoring on file.

Commission’s Response:
The Commission concurred with the finding and noted that it is taking measures to amend
its monitoring policies to ensure verbal briefings are provided to the sub-grantee program
staff immediately following all monitoring sessions, and that compliance reports are issued
within 30-days of the monitoring session. Copies of the original monitoring report and
documented follow-up visits will be maintained on file to ensure compliance deficiencies
have been corrected.

Auditor’s Comment:
The actions proposed by the Commission, if implemented, should be adequate to address
the finding.


Finding 2.   Grant Fund Matching Requirements Were Not Met Resulting In Excess
             Grant Funds Being Drawn Down.

Our test procedures included a review of the grantee’s matching funds to ensure that the
grantee met its matching requirements. During the review, we noted that the grantee did
not meet the grant fund matching requirement, and drew down more funds than allowed
from Administrative Grant Number 07CAHDE001, amounting to $29,149. Under the
agreement for the grant year ended December 31, 2008, the Corporation was to fund
approximately 49 percent of grant expenditures, and the Commission was responsible for
the remaining 51 percent. During 2008, the grantee reported incurred expenditures of
$89,233 as its share of total expenditures. The corresponding Federal matching share

                                             8
should have been $86,430. However, the actual Federal expenditures reported and drawn
during 2008 totaled $115,579, which resulted in the excess drawdown of $29,149.

For the same Administrative grant, from January 1, 2007, through June 30, 2009,
cumulative expenditures amounted to $218,220. However, the amount drawn down by the
grantee approximated $241,236, resulting in excess drawdown of $23,016. This amount is
already included in the excess drawdown of $29,149 discussed above.

This condition was caused by inadequate monitoring of the matching process by the
Commission to ensure that appropriate match requirements were met. In addition, there is
a lack of adequate reconciliation of the grant fiscal activities between the Commission’s
fiscal department, which inputs expenditures in the Delaware State financial management
system, and the Controller’s Office at the Delaware Department of Health and Social
Services (DHSS) that performs the drawdowns. By not properly tracking the matching
requirements, the Commission is at risk of requesting and receiving funds to which it is not
entitled. As a result of the condition noted above, the grantee over-drew grant funds
amounting to $29,149.

Criteria:
Title 45 C.F.R § 2521.35 Who must comply with matching requirements?, states:

       (a) The matching requirements described in §§ 2521.40 through 2521.95 apply to
       you if you are a subgrantee of a State commission or a direct program grantee of the
       Corporation. These requirements do not apply to Education Award Programs.
       (b) If you are a State commission, you must ensure that your grantees meet the
       match requirements established in this part, and you are also responsible for
       meeting an aggregate overall match based on your grantees’ individual match
       requirements.

Title 45 C.F.R § 2521.40 What are the matching requirements?, states:

       If you are subject to matching requirements under §2521.35, you must adhere to the
       following:

       (a) Basic match: At a minimum, you must meet the basic match requirements as
       articulated in § 2521.45.
       (b) Regulatory match: In addition to the basic requirements under paragraph (a) of
       this section, you must provide an overall level of matching funds according to the
       schedule in §2521.60(a), or §2521.60(b) if applicable.

Recommendations:
We recommend that the Corporation:

2a.    Require the Commission to provide supporting documentation for the excess
       drawdowns of grant funds, or in the absence of such documentation, refund the
       $29,149 in excess drawdowns to the Corporation.

                                             9
2b.    Require the Commission to adequately monitor the grant matching activities to
       ensure that all matching requirements are met.

Commission’s Response:
The Commission concurred with the finding but did not agree with the audit
recommendation. The Commission stated that it was implementing a new accounting
system called First State Financials using accrual accounting. The new system will replace
the old Delaware Financial Management System which has been on a cash basis.
According to the Commission, the new system will better monitor financial activity of
Federal and state funds by performing a budget check (against the grant award and the
matching requirements) for each expenditure. The Commission also noted that fiscal
monitoring systems are in place.

Auditor’s Comment:
The Commission did not address how it would resolve the issue of the excess drawdown of
grant funds. The Corporation should take the recommended action to recover the excess
drawdown amounts. The actions proposed by the Commission to monitor grant matching
activities, if implemented, will address the deficiency noted in the finding.


Finding 3.    Criminal Background Check Was Not Conducted For One Member.

Our review of 53 member files found that one member did not have evidence to support
that a background check was completed prior to or during the member’s term of service.
The member’s file indicated that the background check was pending on the date the
member began serving. The member’s background check was subsequently completed
after our visit to the subgrantee. The member was enrolled in June 2009 and completed
service in August 2009. However, the background check was not completed until October
2009, two months after the member completed service. As a result we questioned the
education award of $1,250, because the eligibility requirement of a background check was
not completed before the member’s term of service began.

The condition noted was due to oversight by the Delaware State Parks program staff to
follow-up and ensure that the criminal background check was completed timely. Without
documentation of required background checks, there is the risk that applicants having a
criminal history could be enrolled and placed in an environment with substantial direct
contact with children or other vulnerable populations.

Criteria:
Title 45 CFR §§ 2540.200 and 2522.205 To whom must I apply suitability criteria relating
to criminal history?, state:




                                            10
       You must apply suitability criteria relating to criminal history to an individual
       applying for, or serving in, a position for which an individual receives a
       Corporation grant-funded living allowance, stipend, education award, salary, or
       other remuneration, and which involves recurring access to children, persons age 60
       and older, or individuals with disabilities.

Recommendations:
We recommend that the Corporation:

3a.    Require the Commission to reimburse the Corporation for one education award in
       the amount of $1,250 paid on behalf of the member.

3b.    Require the Commission to ensure that criminal background checks are performed
       for all members before they begin serving, and that documentation of those
       background checks be properly maintained to demonstrate compliance.

Commission’s Response:
The Commission concurred with this finding but stated the criteria cited did not apply
because, at the time of the member’s service, a criminal background check was not
required. The Commission stated that the primary role of the member was historical
collections and curation, and did not involve public interaction. It stated further that the
position would never have individual access to visitors.

Auditor’s Comment:
While the position description provided for the member noted that the member’s primary
role was to work with historical collections, it also stated that at times the member is
expected to assist in tours of the facilities and grounds. No additional documentation was
provided that showed that the member was clearly precluded from having access to
visitors. The background check should have been completed prior to the member
beginning service. The Corporation should take the recommended actions.


Finding 4.   Lack Of Adequate Procedures To Ensure That All Program Compliance
             Requirements Were Followed.

End-of-term evaluations were not performed for three members: Our review of 53
member files identified three members from subgrantee Delaware State Parks whose files
did not contain evidence that end-of-term performance evaluations were conducted. These
members were enrolled during the 2007-2008 program year. According to Delaware State
Parks, the end-of-year evaluations were not completed because the members were not
available for the evaluations. Delaware State Parks indicated that one member was
deployed to Red Cross in Louisiana, while another member voluntarily stopped attending
the program. These members were enrolled as full-time but did not earn an education
award. A third member completed the program but a performance evaluation was not
completed. This member was enrolled as quarter-time and earned a full education award.


                                              11
Without end-of-term evaluations, programs may not be able to determine whether a
member satisfactorily completed his or her term of service, is eligible for an education
award, or eligible to serve a second term. Properly completed evaluations are necessary to
ensure that members are eligible for additional service terms and that grant objectives have
been met.

Criteria:
The 2007 AmeriCorps Grants Provisions, Section IV.D. Training, Supervision and
Support, states, in part:

       6. Performance Reviews. The grantee must conduct and keep a record of at least a
       midterm and end-of-term written evaluation of each member's performance for Full
       and Half-Time members and an end-of-term written evaluation for less than Half-
       time members. The evaluation should focus on such factors as:
            a. Whether the member has completed the required number of hours;
            b. Whether the member has satisfactorily completed assignments; and
            c. Whether the member has met other performance criteria that were clearly
                communicated at the beginning of the term of service.

Title 45 CFR § 2522.220 What are the required terms of service for AmeriCorps
participants, and may they serve for more than one term?, states, in part:

       (d) Participant evaluation. For the purposes of determining a participant's eligibility
       for an educational award as described in §2522.240(a) and eligibility to serve a
       second or additional term of service as described in paragraph (c) of this section,
       each AmeriCorps grantee is responsible for conducting a mid-term and end-of-term
       evaluation. A mid-term evaluation is not required for a participant who is released
       early from a term of service or in other circumstances as approved by the
       Corporation. The end-of-term evaluation should consist of:
               (1) A determination of whether the participant:
                       (i) Successfully completed the required term of service described in
                       paragraph (a) of this section, making the participant eligible for an
                       educational award as described in §2522.240(a);
                       (ii) Was released from service for compelling personal
                       circumstances, making the participant eligible for a pro-rated
                       educational award as described in §2522.230(a) (2); or
                       (iii) Was released from service for cause, making the participant
                       ineligible to receive an educational award for that term of service as
                       described in §2522.230(b) (3); and
               (2) A participant performance and conduct review to determine whether the
               participant's service was satisfactory, which will assess whether the
               participant:
                       (i) Has satisfactorily completed assignments, tasks, or projects, or,
                       for those participants released from service early, whether the
                       participant made a satisfactory effort to complete those assignments,


                                             12
                        tasks, or projects that the participant could reasonably have
                        addressed in the time the participant served; and
                        (ii) Has met any other criteria which had been clearly communicated
                        both orally and in writing at the beginning of the term of service.

Recommendation:
We recommend that the Corporation:

4a.       Require the Commission to comply with the AmeriCorps program requirements,
          and to ensure that subgrantees adhere to grant provisions regarding the completion
          of end-of-term performance evaluations.

Commission’s Response:
The Commission concurred with the finding but disagreed with the criteria cited in the
report. The Commission stated that the criteria does not apply because the policy is to
ensure that the member is accurately receiving credit for service performed toward
completion of required service hours; that the program is not misstating or under-recording
the member’s hours; and that the member is performing service at the site as agreed upon.

Auditor’s Comment:
The criteria noted, which requires the grantee or subgrantee to perform end-of-term
evaluations, is accurate. These evaluations allow the Corporation to determine whether
members are eligible for awards or future program participation. The Corporation should
take the recommended action.

Timesheets were not signed or dated: Our review of 53 member files found that five
members had timesheets that were lacking the signatures of the members, their supervisor,
or both. Specifically, we identified the following:

         One member’s timesheet from YMCA/ESC was not signed by either the member or
          his supervisor.
         A timesheet for one member from YMCA/ESC was not signed by the member’s
          supervisor.
         Nine timesheets for three members from Delaware State Parks were not signed by
          the members. In one instance, Delaware State Parks program staff attempted to
          document the member’s hours based on discussions with the member’s supervisor
          and review of the member’s scheduled service days. We questioned one member’s
          education award in the amount of $4,725, because after excluding 43 hours related
          to the unsigned timesheet, the member would have only accumulated 1,684 hours of
          the 1,700 hours required to earn an award.

According to YMCA/ESC, the timesheet was not signed by the supervisor because it was
faxed to YMCA/ESC by the member without the member’s signature, and the program
staff was still in the process of trying to obtain the member’s signature. YMCA/ESC also
noted that the timesheet that was signed by the member, but not the supervisor, related to
the member’s initial orientation and was the only timesheet the member provided. The

                                              13
program staff noted that while they were aware that the member was performing active
service, she subsequently exited from the program for failure to document her service
hours.

According to Delaware State Parks, two of the members who did not provide signed
timesheets were terminated from the program in part for that reason. The other unsigned
timesheet was faxed in by the member without her signature and the subgrantee staff did
not follow up to obtain the signed copy. Submitted timesheets that are not properly signed
by a member or verified by the member’s supervisor may be inaccurate or incomplete.

Criteria:
The 2008 AmeriCorps Grant Provisions, Section IV.C. Member Recruitment, Selection,
and Exit states, in part:

       4. Timekeeping. The grantee is required to ensure that time and attendance
       recordkeeping is conducted by the individual who supervises the AmeriCorps
       member. This time and attendance record is used to document member
       eligibility for in-service and post-service benefits. Time and attendance records
       must be signed and dated both by the member and by an individual with
       oversight responsibilities for the member.

The 2007 AmeriCorps Grant Provisions, Section IV.C. Member Enrollment, states, in part:

       2. AmeriCorps Members. The grantee must keep time and attendance records on all
       AmeriCorps members in order to document their eligibility for in-service and post-
       service benefits. Time and attendance records must be signed and dated both by the
       member and by an individual with oversight responsibilities for the member.

Recommendations:
We recommend that the Corporation:

4b.    Require the Commission to reimburse the Corporation for one education award in
       the amount of $4,725 paid on behalf of the member.

4c.    Require the Commission to ensure that timesheets are prepared and signed by
       members, and the review and approval of hours recorded on timesheets are
       performed by the supervisor.




                                            14
Commission’s Response:
The Commission stated that while the timesheet was not signed, the Delaware State Parks
program conducts monthly timesheet audits for the members to verify current hours. At
that time, corrections to the timesheet are made and the member has the opportunity to
correct program records. The Commission also stated that to ensure that the member did
complete service, the timesheet was signed by the Site Supervisor verifying the member’s
presence at the site and service hours earned. The Commission stated that the YMCA
Resource Center Emergency Services Corps has a procedure in place to ensure that
member timekeeping and approval is handled in compliance with the provisions. All forms
are reviewed by the Program Director for compliance. The ESC Program Policy manual
has the policy regarding member timesheets, signatures, approval, and monitoring.

Auditor’s Comment:
The Corporation should take the recommended action to recover the questioned amount of
$4,725 paid on behalf of the member. In its written response on behalf of the Delaware
State Parks program, the Commission indicated that Delaware State Parks conducts
monthly audits of timesheets. However, the response did not address how Delaware State
Parks would ensure that unsigned timesheets found during the monthly audits would be
signed by members and supervisors. The YMCA/ESC Program Policy manual, containing
the policy on timesheets, signatures, approval, and monitoring, will adequately address the
deficiencies noted in the finding.

Enrollment and exit forms were not maintained in some member files, were not
properly completed, and the Corporation’s National Service Trust was not notified
within 30 days of the member’s enrollment or exit: Our review of 53 member files
found that 16 members’ files did not have adequate documentation to demonstrate that
members exit forms were completed, signed and dated by the approving official. In
addition, the Commission did not notify the Corporation’s National Service Trust within 30
days of members’ enrollment or exit, as appropriate, using the Corporation’s Web based
Reporting System (WBRS). The table below lists the subgrantees with members’ files
having inadequate documentation.


Member Files Having Inadequate Enrollment and Exit Documentation


                                                              Program Year      Program Year
              Description                  Subgrantee          2007 -2008        2008 -2009
Exit forms not signed by member or     Delaware State Parks         2                 -
approving official
Exit Forms not in member’s file        YMCA/ESC                      3                 1
Exit Forms not in member’s file        Delaware State Parks          3                 -
Member not enrolled in WBRS within     Delaware State Parks          1                 3
30 days
Member not exited in WBRS within 30    Delaware State Parks          3                 -
days
                                                      Total         12                 4

                                            15
For the three members in program year 2008-2009 who were not exited from WBRS within
30 days of their completion date, the actual exit dates in WBRS ranged from five to nine
months after the member completed service.

The subgrantees did not comply with program provisions that required complete and timely
reporting of member records in WBRS. The program staff at Delaware State Parks
indicated that missing and unsigned member exit forms were the result of program
monitoring oversight. According to YMCA/ESC, the four members were timely exited in
WBRS but the actual exit forms were misfiled. Without accurate and timely submission of
enrollment and exit forms, the Corporation cannot maintain accurate member records, and
subgrantees may not be able to properly review, track, and monitor program site activities
and accomplishments.

Criteria:
The 2008 AmeriCorps Grants Provisions, Section IV.C. Member Recruitment Selection and
Exit, states, in part:

       1. Notice to the Corporation’s National Service Trust. The grantee must notify the
       Corporation’s National Service Trust within 30 days of a member’s selection for,
       completion of, suspension from, or release from, a term of service. Suspension of
       service is defined as an extended period during which the member is not serving,
       nor accumulating service hours or receiving AmeriCorps benefits.

       The grantee also must notify the Trust when a change in a member’s status is
       approved and changed (i.e. from full-time to less than full-time or vice versa).
       Failure to report such changes within 30 days may result in sanctions to the grantee,
       up to and including, suspension or termination. Grantees or subgrantees meet
       notification requirements when they use the appropriate electronic system to inform
       the Corporation within the approved time frames.

The 2007 AmeriCorps Grant Provisions, Section IV.N. Reporting Requirements, states, in
part:

        2. AmeriCorps Member-Related Forms. The grantee is required to submit the
        following documents to the National Service Trust at the Corporation on forms
        provided by the Corporation. Grantees and subgrantees may use WBRS to submit
        these forms electronically. Programs using WBRS must also maintain hard copies
        of the forms.

                  Enrollment Forms. Enrollment forms must be submitted no later than
                   30 days after a member is enrolled.
                  Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
                   Service Forms must be submitted no later than 30 days after a member
                   exits the program or finishes his/her term of service.




                                            16
Recommendation:
We recommend the Corporation:

4d.    Require the Commission to comply with program provisions, and to ensure that
       members’ enrollment and exit forms are signed, dated, and maintained in member
       files and submitted to the Corporation within 30 days, as required.

Commission’s Response:
The YMCA Resource Center has policies in place to ensure that member enrollment and
exits are handled in compliance with the provisions. The three exit forms missing from
files were the result of members having been released from service. In the event that a
member is unavailable or is released from service, that member will likely not voluntarily
complete a program exit form. In those instances, the exit printout from the Member
Portal, combined with the member’s letter of release, will serve to document the member’s
exit from the program. These items were in the member files. All forms are reviewed for
compliance by the Program Director and data is entered into the portal by the Program
Director.

Auditor’s Comment:
The Commission’s response on behalf of YMCA/ESC adequately addresses the
deficiencies related to lack of exit forms noted in the finding. However, the Commission
did not address or identify corrective measures for the lack of exit forms we noted for
Delaware State Parks.

Lack of orientation documentation: Our review of 53 member files found three member
files from Delaware State Parks that did not contain orientation documentation, such as
sign-in sheets, to support the members’ attendance at pre-service orientation sessions.

The Delaware State Parks established policy of documenting pre-service orientation by
having the member sign the New Member Orientation sign-in sheets was not always
followed by program staff. Retention of orientation sign-in sheets is necessary to show that
members attended the required pre-service orientation, so that they are aware of and
understand the program requirements. Members who do not participate in the required
orientation may not be aware of requirements to which they must adhere to successfully
complete the program.

Criteria:
The 2008 AmeriCorps Grant Provisions, Section IV.D. Supervision and Support, states, in
part:

       3. Supervision. The grantee must provide members with adequate supervision by
       qualified supervisors in accordance with the approved application. The grantee
       must conduct an orientation for members and comply with any pre-service
       orientation or training required by the Corporation.




                                            17
The 2007 AmeriCorps Grant Provisions, Section IV.D.3. “Training, Supervision and
Support,” states, in part:

       The grantee must conduct an orientation for members and comply with any pre-
       service orientation or training required by the Corporation. This orientation should
       be designed to enhance member security and sensitivity to the community.
       Orientation should cover member rights and responsibilities, including the
       Program's code of conduct, prohibited activities (including those specified in the
       regulations), requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et
       seq.), suspension and termination from service, grievance procedures, sexual
       harassment, other non-discrimination issues, and other topics as necessary.

Recommendation:
We recommend that the Corporation:

4e.    Require the Commission to ensure that subgrantees adhere to the grant provisions
       requiring all members to attend pre-service orientation. In addition, subgrantees
       should maintain adequate supporting documentation, such as New Member
       Orientation sign-in-sheets, to substantiate members’ attendance at pre-service
       orientation sessions.

Commission’s Response:
The Commission stated that enrollment takes place during orientation. All members
participate in an Early Service Orientation which is held at the beginning of the member’s
period of service. Members starting service after team orientation will undergo individual
orientation scheduled by the Program Director. Additionally, the orientation will cover
information designed to enhance member security and sensitivity to the community.
Members will have access to policy information including a member manual, distributed
during orientation and accessible on the grantee’s website. Members verify their receipt of
the handbook and their attendance at orientation by submitting a signatory page to the
Program Office at the conclusion of their orientation. The date of the member’s orientation
will be noted on the member’s file cover page and verified by the Program Director.

Auditor’s Comment:
The actions proposed by the Commission, if implemented, should be adequate to address
the finding.

One member continued to receive living allowances after periods of not performing
required service: Our review of 53 members files showed that one member enrolled in
March 2008, in the YMCA/ESC program, did not report any hours on his timesheets during
April 2008. This member should have been suspended from the program at that time.
However, in addition to five hours served in March 2008, the member only served a total of
32 hours after April 2008. The member received living allowances after April 2008
amounting to $4,677. Of this amount $3,554 or 76 percent was paid from Corporation
funds. We noted that the member was exited from the program without an award in March,
2009. As a result, we questioned living allowances paid to the member amounting to
$3,554 for the period April 2008 through March 2009.
                                            18
There were no procedures in place to ensure members who are not serving and not
reporting hours on their timesheets are suspended timely from the program. According to
the Program Director, the member had a difficult time completing his service hours due to
other personal commitments. The member had completed only 37 hours (five percent of
the required 675 service hours) by November 2008, but the program staff still believed the
member was capable of completing the remaining hours before the expected completion
date in March 2009. The member did not serve any additional hours between November
2008 and March 2009. As a result of the condition noted above, the member received
living allowances to which he was not entitled.

Criteria:
AmeriCorps State and National FAQs C-25, FAQ #070809 - “How should a program
handle a situation when a member serves no hours during a pay period?”

       Situations in which a member serves zero hours during a pay period should be very
       rare and the member should be suspended if there are periods in which no service
       hour is performed. Otherwise, since the living allowance is to be distributed evenly
       over the service period, it should be paid regardless of the number of hours.
       However, a member’s contract could also stipulate conditions under which the
       living allowance is paid and what the member should do if a period occurs in which
       no hours are served. The contract could also stipulate the minimum number of
       hours required during each service period.

Recommendations:
We recommend that the Corporation:

4f.    Require the Commission to reimburse the Corporation for the living allowances of
       $3,554 paid to the member after the member failed to perform any service hours in
       April, 2008.

4g.    Require the Commission to implement procedures to ensure timely suspension of
       members who do not perform service and do not record service hours under the
       program, as required.

Commission’s Response:
The Commission disagreed with the questioned amount of living allowance payments to be
repaid to the Corporation for one member in the YMCA Resource Center Emergency
Services Corps Program, because it was calculated on total amount paid to the member
rather than on the basis of the Corporation’s share.

Auditor’s Comment:
We recalculated the questioned amount to include only the Corporation share, or 76 percent
of the member’s living allowance. The revised questioned costs related to amounts paid to
the member after the member failed to perform any service hours in April 2008 totaled
$3,554. The Commission did not discuss in its response whether procedures would be

                                            19
implemented to ensure timely suspension of members who do not perform service and do
not record service hours under the program.

This report is intended for the information and use of the Office of Inspector General,
Corporation, management, the Commission, and the U.S. Congress. However, this report is
a matter of public record and its distribution is not limited.




Regis & Associates, PC
October 30, 2009




                                          20
                                                                              EXHIBIT C


DELAWARE COMMISSION ON COMMUNITY AND VOLUNTEER SERVICE

CONSOLIDATED SCHEDULE OF RECOMMENDATIONS AND QUESTIONED COSTS



                             Questioned Costs
Recommendation         Unallowable    Unsupported          Funds Put to Better Use
     2a.                $    29,149         -                        -
     3a.                $     1,250         -                        -
     4b                 $     4,725         -                        -
     4f.                $     3,554         -                        -
         Total          $    38,678         -                        -


Questioned Cost means a cost that is unallowable because of:
   1. an alleged violation of a provision of a law, regulation, contract, grant,
      cooperative agreement, or other agreement or document governing the
      expenditure of funds;
   2. a finding that, at the time of the audit, such cost is not supported by adequate
      documentation; or
   3. a finding that the expenditure of funds for the intended purpose is unnecessary or
      unreasonable.

Unsupported Cost means a cost that is questioned because at the time of the audit, such
cost is not supported by adequate documentation. Unsupported costs are included in the
total of unallowable costs.

Recommendation that funds put to better use means a recommendation that funds could
be used more efficiently if management takes actions to implement and complete the
recommendation, including:
    1. reductions in outlays;
    2. deobligation of funds from programs or operations;
    3. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
        bonds;
    4. costs not incurred by implementing recommended improvements related to the
        operations of the establishment, a contractor or grantee;
    5. avoidance of unnecessary expenditures noted in preaward reviews of contract or
        grant agreements; or
    6. any other savings which are specifically identified.




                                            21
                          APPENDIX A
________________________________________________________________
        THE DELAWARE COMMISSION ON COMMUNITY
                  AND VOLUNTEER SERVICE’S
               RESPONSE TO THE DRAFT REPORT
           Delaware Health and Social Services
           Division of State Service Centers
           State Office of Volunteerism
                                                                                          AmeriCorps
                                                                           Volunteer Resource Center
                                                                         Foster Grandparent Program
                                                                Retired and Senior Volunteer Program

February 8, 2010

Mr. Ronald F. Huritz
Audit Manager
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW
Suite 830
Washington, DC 20525

Dear Mr. Huritz:

Thank you for the opportunity to comment on the draft report of the recent audit of the Delaware
Governor’s Commission on Community and Volunteer Service. Below please find our responses to
findings one through four.

Response to the findings of the OIG Auditors:

Finding 1 – Fiscal And Programmatic Monitoring Procedures Of Subgrantees Were Not Fully
Performed, And The Results Were Not Always Documented.

The Delaware Commission concurs with the finding and is taking measures to amend their monitoring
policies to ensure verbal briefings are provided to the sub-grantee program staff immediately
following all monitoring sessions, and that compliance reports are issued within 30-days of the
monitoring session. A copy of the original issued monitoring report will be kept on file, and
subsequent follow-up visits to ensure compliance deficiencies have been corrected will be scheduled
with documented resulted maintained at both the State office and sub-grantee locations.

Finding 2 – Grant Fund Matching Requirements Were Not Met, Resulting In Excess Grant
Funds Being Drawn Down.

The Delaware Commission concurs with the finding; however, we do not agree with the auditor’s
recommendation. The State of Delaware is implementing a new accounting system called First State
Financials (FSF) using accrual accounting. This system will replace the old Delaware Financial
Management System (DFMS) which has been on a cash basis. FSF is more of a transaction based
accounting system and will better monitor financial activity of federal and state funds by performing a
budget check (against the grant award and the matching requirements) for the expenditure.

Fiscal monitoring systems are in place.
Finding 3 – Criminal Background Check Was Not Conducted For One member.

The Delaware Commission concurs with this finding; however, the criteria the auditors cite does not
apply since at the time of the member’s service, a criminal background check was not required for her
service. As indicated in the above referenced CFR, the requirement for criminal background checks
applied only to members having recurring access to children, persons over 60, or individuals with
disabilities. In this case, the primary role was in historical collections and curation, which does not
involve public interaction. This position never would have individual access to visitors during any of
the possible infrequent times that they might have been called upon to assist the interpretive staff.

Finding 4 – Lack Of Adequate Procedures To Ensure That All Program Compliance
Requirements Were Followed.

The Delaware Commission concurs with this finding; however, the criteria cited by the auditors does
not apply, as it is our understanding that that this policy is to ensure:
    1. That the member is accurately receiving credit for service performed towards completion of
        required hours- that the program is not misstating or under-recording the member’s hours.
    2.That the member is in fact and indeed performing service at site as agreed upon.

State Park Partners ensures member credit towards hours completion:
While the time sheet was not signed, our program conducts monthly Time-Sheet audits for the
members to verify current hours. At this time, corrections to member arithmetic are made and the
member has the opportunity to challenge or correct program receipt of hours totals.

The member was notified. No correction or challenge was made from the member. In addition, the
members use the last recorded time to maintain a running total of hours towards completion. The
member utilized the amount from the sheet in question on the subsequent timesheet, in effect
verifying the record of the time. Please also note that all of the writing is in the member’s hand.

Additionally, to ensure that the member did complete service, the time sheet was signed by the Site
Supervisor, verifying the member’s presence and performance of service.

    A. Delaware State Parks Partners requires that, prior to enrollment, members are required to have
        submitted and received a successful criminal history background check and to have provided
        2 references.
    B. The program will obtain necessary enrollment documentation during the program Orientation.
    C. Members must complete enrollment documentation to satisfy federal Program Provisions as
        well as provide required documents.
    D. Enrollment takes place during Orientation.

            All members participate in an Early Service Orientation.

            1. This Orientation is held at the beginning of the member service.
            2. Member enrollment is a part of the Early Service orientation.
            3. Members starting after Team Orientation will undergo individual Orientation scheduled
                 by the Program Director.
            4. This orientation includes the History and goals of AmeriCorps, an understanding of
                 Delaware State Parks, and the mission and objectives of the program
            5. Additionally the Orientation will cover information designed to enhance member
                 security and sensitivity to the community. Orientation will include member rights and
                 responsibilities, including the Program's code of conduct, prohibited activities,
                 requirements under the Drug-Free Workplace Act, suspension and termination from
                 service, grievance procedures, sexual harassment, other non-discrimination issues,
                 and other Division Policies.
             6. Members will have access to policy information including a member Manual, distributed
                  during Orientation and accessibility via Division Website. Members verify receipt of
                  Handbook and attendance at Orientation by submitting a signatory page to the
                  Program Office at the conclusion of their Orientation.
             7. The date of the members Orientation will be noted on the Member File Cover page and
                  verified by the Program Director.

The YMCA Resource Center has policies in place to ensure that member enrollment and exits are
handled in compliance with the provisions. The 3 member exit forms missing from files were the result
of members having been released from service. In the event that a member is unavailable or is
released from service, that member will likely not voluntarily complete a program exit form. In those
instances, the exit printout from the Member Portal, combined with the member’s letter of release, will
serve to document the member’s exit from the program. These items were in the member files. All
forms are reviewed for compliance by the Program Director and data entered into the Portal by the
Program Director.

The YMCA Resource Center Emergency Services Corps has a procedure in place to ensure that
member timekeeping and approval is handled in compliance with the provisions. All forms are
reviewed by the Program Director for compliance. The ESC Program Policy manual presents the
following policy regarding member timesheets, signatures, approval, and monitoring.

Regis & Associates recommends that living allowance payments in the amount of $4,677 be repaid to
the Corporation for one member in the YMCA Resource Center Emergency Services Corps Program
who was able to complete a fraction of his required hours. We disagree with this recommendation, as
the living allowance figure arrived at by Regis & Associates is calculated on total amount paid to the
member, rather than the CNCS share.

The YMCA Resource Center Emergency Services Corps regularly monitors member hours.

Summary:

We have reviewed the findings of the draft report from the audit of the Delaware Governor’s
Commission on Community and Volunteer Service and have implemented, or are implementing,
policy updates and safeguards that will further strengthen our program compliance to CNCS policies.
Thank you.

Sincerely,




Andy Kloepfer, Executive Director
Delaware Governor’s Commission on Community and Volunteer Service
Senior Administrator, State Office of Volunteerism
                         APPENDIX B
______________________________________________________________
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
              RESPONSE TO THE DRAFT REPORT
NATIONAL &
COMMUNITY -                 - - - - - - - - - - - -- -
SERVICE~C




                   ~
    T o:                tuart .,   enfeld, Insp     G n . al for Audit

    From:           . ' ~ ': '? ,'
                    ~A!1   i¢ei:~          rry,        " ;...-:~h'
                                                  I ec or 0 ~    S' ~.   agement

    Date:           Febru~
    Subject:        Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
                    Delaware Commission on Community and Volunteer Service


    Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
    Procedures report of the Corporation's grants awarded to Delaware Commission on Community
    and Volunteer Service (DCCVS). We will work with DCCVS to ensure its corrective action
    plan adequately addresses and implements the findings. We have yet to receive the audit
    working papers. Accordingly, we will respond with the management decision after we have
    reviewed the audit working papers and the DCCVS corrective action plan.

    C c:     William Anderson, Acting Chief Financial Officer for Finance
             Frank Trinity, General Counsel
             Kristin McSwain, Director of AmeriCorps
             Bridgette Roy, Audit Resolution Coordinator




                        Senior Corps       * AmeriCoq>s * Learn and Serve America
           120 New York Avenue, NW       * Washington, DC 20525 * 202-606-5000 * www.n.ationalservice..gov
